U.S. Department of Labor

                                                   EMPLOYMENT AND TRAINING
                                                                             ADMINISTRATION

                             Office of Inspector General—Office of Audit 




                                                                             RECOVERY ACT: STATES HAVE AGGRESSIVELY IMPLEMENTED
                                                                             THE $25 WEEKLY SUPPLEMENTAL UNEMPLOYMENT BENEFIT
                                                                             BUT SOME CHALLENGES REMAIN




                                                                             This audit was performed by Foxx & Company, Certified Public
                                                                             Accountants, under contract to the Office of Inspector General, and by
                                                                             acceptance, it becomes a report of the Office of Inspector General.




                                                                                                 Assistant Inspector General for Audit




                                                                                                                     Date: September 30, 2009
                                                                                                            Report Number: 18-09-004-03-315
U.S. Department of Labor                                 September 2009
Office of Inspector General
Office of Audit
                                                         RECOVERY ACT: STATES HAVE
BRIEFLY…                                                 AGGRESSIVELY IMPLEMENTED THE $25
                                                         WEEKLY SUPPLEMENTAL UNEMPLOYMENT
                                                         BENEFIT BUT SOME CHALLENGES REMAIN
Highlights of Report Number: 18-09-004-03-315, to the
Assistant Secretary for Employment and Training.

WHY READ THE REPORT                                      WHAT OIG FOUND
The President signed the American Recovery and           All of the states aggressively implemented the program.
Reinvestment Act of 2009 (Recovery Act) on               As of June 30, 2009, the 10 states had paid about $1.3
February 17, 2009, to, among other things, provide       billion in benefits to FAC recipients. Overall, we
additional assistance to unemployed workers. The         assessed the risk level for compliance with Federal
Recovery Act authorized a new temporary Federal          requirements as low for 9 of the 10 states. The State of
Additional Compensation (FAC) program that provides      New York’s system was assessed as medium because
a $25 supplement to the Weekly Benefit Allowance         of system weaknesses related to duplicate payments
(WBA) paid by states to eligible unemployed recipients   and the non-reporting of FAC overpayment information.
through December 31, 2009. The Department of Labor
estimates that the FAC program will cost about $8.7      Challenges identified in implementing the FAC program
billion.                                                 involved the development of overpayment
                                                         identifications, recovery capabilities, and the
WHY OIG CONDUCTED THE AUDIT                              withholding of taxes. The audit also found
                                                         non-compliance issues concerning states not reporting
Foxx & Company, Certified Public Accountants,            overpayment information to the Department’s
conducted the audit under contract with the Office of    Employment and Training Administration (ETA) and not
Inspector General. The audit objectives were to          withholding taxes when requested by claimants. One
determine whether states (1) implemented the FAC         state (Indiana) did not intend to recover overpayments
program as authorized, (2) paid the $25 weekly           from claimants. Overpayments by states during the
supplement in accordance with allowable methods          period February 2009 through June 30, 2009, ranged
identified in the Recovery Act, (3) had systems for      from $160,000 to $2.5 million. These challenges and
implementing the FAC program that were adequately        non-compliance issues were caused by the short
designed to address Federal requirements, and            timeframe the states had to implement the program and
(4) separately accounted for and accurately reported     difficulties in reprogramming existing systems to meet
financial and program data.                              the requirements of the program.

The scope of the audit was limited to evaluating the     WHAT OIG RECOMMENDED
systems designed by 10 selected states to implement
the FAC program. The states selected were California,    OIG recommended actions the Assistant Secretary for
Florida, Indiana, Minnesota, New Mexico, New York,       Employment and Training should take to ensure that
Oklahoma, Ohio, Vermont, and Virginia.                   the identified challenges are met and the non-
                                                         compliance issues are resolved.
READ THE FULL REPORT
                                                         In response to the draft report, the Assistant Secretary
To view the report, including the scope, methodology,    for Employment and Training stated ETA will follow up
and full agency response, go to:                         with each of the applicable states to ensure that they
                                                         complete the required programming for income tax
http://www.oig.dol.gov/public/reports/oa/2009/           withholding, and identify, recover, and report FAC
18-09-004-03-315.pdf                                     overpayments. ETA will also issue guidance to all
                                                         states to reaffirm FAC requirements.
                                                   Prepared by Foxx & Company, Certified Public Accountants
                                                for the U.S. Department of Labor—Office of Inspector General




Table of Contents 

Independent Auditor’s Report ................................................................. 1 


Results in Brief........................................................................................ 2 


Results and Findings .............................................................................. 3 


         Objective 1 - Did the states implement the FAC program
         as authorized?.............................................................................. 4 


         Objective 2 - Did the states pay the weekly supplement 

         in accordance with allowable methods identified in the 

         Recovery Act?.............................................................................. 4 


         Objective 3 - Were the states’ systems for implementing
         the FAC program adequately designed to address Federal
         requirements? .............................................................................. 5 


         Objective 4 - Did the states separately account for and 

         report financial and program data? ............................................. 8 


Recommendations .................................................................................. 9 


Exhibit 1 – Matrix of Results by State .....................................................13 


Exhibit 2 – Summaries of Risk Assessments for the 10 States 

            Included in the Audit..............................................................15 


Exhibit 3 – Objectives, Scope, and Methodology ....................................23 


Exhibit 4 - Acronyms ...............................................................................25 


Exhibit 5 – Agency Comments ................................................................27 





                                                      Recovery Act: Federal Additional Compensation Program
                                                                                Report No. 18-09-004-03-315
           Prepared by Foxx & Company, Certified Public Accountants
        for the U.S. Department of Labor—Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




            Recovery Act: Federal Additional Compensation Program
                                      Report No. 18-09-004-03-315
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General




September 30, 2009

Ms. Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

President Obama signed the American Recovery and Reinvestment Act
into law on February 17, 2009. The Recovery Act provides $787 billion in
Federal funds for job preservation and creation, infrastructure investment,
energy efficiency and science, assistance to the unemployed, and state
and local fiscal stabilization. Division B, Title II, “Assistance for
Unemployed Workers and Struggling Families,” Sections 2001-2006
contain several provisions related to the Unemployment Insurance (UI)
program. One of the provisions includes a new temporary Federal
Additional Compensation (FAC) program. The FAC program provides a
supplement to the Weekly Benefit Allowance (WBA) paid to eligible
unemployed recipients. This report presents the results of an audit,
performed by Foxx & Company CPAs, Cincinnati, Ohio, under contract
with the Department of Labor (DOL), Office of Inspector General (OIG),
concerning the implementation of the FAC program.

The FAC program added a taxable $25 supplement to the WBA each
week from the initiation of the program in February 28, 2009, through
December 31, 2009, for individuals receiving regular Unemployment
Compensation, Unemployment Compensation for Federal Employees,
Unemployment Compensation for Ex-Services Members, Emergency
Unemployment Compensation 2008, Extended Benefits, Trade
Readjustment Allowances, Disaster Unemployment Assistance, Short-
Time Compensation, and Payments Under the Self-Employment
Assistance Program. DOL reported that it executed the required
agreements with each state on or before February 21, 2009, to provide
the supplemental FAC payments. States began issuing the supplemental
FAC payments the week of March 1, 2009. DOL estimated that the FAC
program will cost about $8.7 billion. The Secretary of Labor oversees the
UI program through the Employment Training Administration (ETA).

The objectives of the audit were to determine whether states have
systems in place to ensure that the FAC program meets the requirements
of the Recovery Act, Office of Management and Budget (OMB), and DOL


                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          1
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General

guidance, and to assess the level of risk inherent in the states’ systems.
Specifically, the audit was to determine whether states (1) implemented
the FAC program as authorized, (2) paid the $25 weekly supplement in
accordance with allowable methods identified in the Recovery Act, (3)
had systems for implementing the FAC program that were adequately
designed to address Federal requirements, and (4) separately accounted
for and accurately reported financial and program data.

The scope of the audit was limited to evaluating the systems designed by
10 selected states to implement the FAC program. The audit involved
examining a minimal number of individual payments or transactions to
assist in obtaining an understanding of the systems and procedures. The
objective of the audit was not to determine whether FAC payments were
properly made. Consequently, the audit did not involve extensive testing
of individual FAC payments or transactions. The 10 states were selected
by the DOL/OIG using stratified random sampling. The states selected
by DOL/OIG officials were California, Florida, Indiana, Minnesota, New
Mexico, New York, Oklahoma, Ohio, Vermont, and Virginia. The
timeframe for the audit was from June 3, 2009, to September 3, 2009.

This audit was conducted in accordance with generally accepted
government auditing standards for performance audits. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on the audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on
the audit objectives. The objectives, scope, methodology, and criteria for
the audit are detailed in Exhibit 3 to the report.

RESULTS IN BRIEF

The selected states implemented the FAC program shortly after signing
the Agreement with DOL. As of June 30, 2009, the 10 states had paid
about $1.3 billion in benefits to FAC recipients. All of the states
aggressively implemented the program. Overall, we assessed the risk
level for compliance with Federal requirements as LOW for 9 of the 10
states. The State of New York’s system was assessed as MEDIUM
because of system weaknesses as demonstrated by duplicate payments
that had been made and the non-reporting of FAC overpayments
information.

We observed that challenges and some non-compliance issues exist with
respect to the implementation of the FAC program. The challenges
involve the development of overpayment identifications, recovery
capabilities, and the withholding of taxes. The non-compliance issues
concern states not reporting overpayment information to ETA and not


                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          2
                          Prepared by Foxx & Company, Certified Public Accountants
                       for the U.S. Department of Labor—Office of Inspector General

withholding taxes when requested by claimants. One state did not intend
to recover overpayments from claimants. Overpayments during the
period February 2009 through June 30, 2009, ranged from $160,000 to
$2.5 million. These challenges and non-compliance issues were caused
by the short timeframe the states had to implement the program and
difficulties in reprogramming existing systems to meet the requirements of
the program.

Accordingly, we recommended actions the Assistant Secretary for
Employment and Training should take to ensure that the identified
challenges are met and the non-compliance issues are resolved.

In response to the draft report, the Assistant Secretary for Employment
and Training concurred with the findings in the draft report and said that
ETA will proceed to immediately address the recommendations. ETA will
follow up with each of the applicable states to ensure that they complete
the required programming for income tax withholding, and identify,
recover, and report FAC overpayments. ETA will also issue guidance to
all states to reaffirm the FAC requirements. The response from the
Assistant Secretary for Employment and Training is included in its
entirety as Exhibit 5.

RESULTS AND FINDINGS

As of June 30, 2009, the 10 states included in the scope of the audit had
paid about $1.3 billion in FAC benefits to eligible unemployed claimants.
All of the states aggressively implemented the program. Overall, we
assessed the risk level for compliance with Federal requirements as LOW
for 9 of the 10 states. The State of New York’s system was assessed as
MEDIUM because of system weaknesses as demonstrated by duplicate
payments that had been made and the non-reporting of FAC
overpayment information.

Overall, the implementation of the FAC program has gone well.
However, the audit observed that some challenges and non-compliance
issues continue to exist concerning the implementation of the FAC
program. The challenges involve the development of (1) tax withholding
and (2) overpayment tracking and recovery capabilities. The non-
compliance issues concern states not withholding taxes when requested
by claimants, not intending to recover overpayments from claimants, and
not reporting overpayment information to ETA as required.

The observations from the audit are discussed below within the
framework of the four objectives of the audit. The matrix in Exhibit 1
identifies the respective states with regard to the results of the audit. The



                           Recovery Act: Federal Additional Compensation Program
                                                     Report No. 18-09-004-03-315
                                           3
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General

conclusions from the individual state risk assessments are included in
Exhibit 2.

Objective 1 – Did the states implement the FAC program as
authorized?

States successfully implemented the FAC program and made timely
payments to claimants.

The 10 states implemented the FAC program following the execution of
the required Agreement with the DOL. DOL’s Assistant Secretary for
Employment and Training signed the Agreements on February 17, 2009.
The state approvals were as shown in the following table:
                                        State
            State          Date             State
                         Signed            Official
         California     2/19/2009         Governor
         Florida        2/20/2009         Governor
         Indiana        2/19/2009         Governor
         Minnesota      2/18/2009         Governor
         New Mexico     2/19/2009         Governor
         New York       2/18/2009    Commissioner of Labor
         Ohio           2/19/2009         Governor
         Oklahoma       2/18/2009         Governor
         Vermont        2/19/2009         Governor
         Virginia       2/18/2009         Governor

According to the Recovery Act, the first week of eligibility was the week
ending February 28, 2009. Because of system reprogramming
requirements, some of the states were delayed in making the first
payment. However, the 10 state systems were designed to ensure that
FAC payments were made to all persons eligible to receive the $25
additional compensation for each week eligible starting the week ending
February 28, 2009.

Objective 2 – Did the states pay the weekly supplement in
accordance with allowable methods identified in the Recovery Act?

States either increased the weekly benefit allowance by $25 or made
a separate $25 payment to claimants – both of which were allowable
payment methods.

Under the Recovery Act, FAC payments may be paid either (1) as an
increase of $25 in their weekly benefit allowance to an individual, or (2)
as a separate $25 supplemental payment made to the individual on the


                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          4
                          Prepared by Foxx & Company, Certified Public Accountants
                       for the U.S. Department of Labor—Office of Inspector General

same schedule as regular unemployment compensation. As shown in
the table below and in Exhibit 1, four of the states elected to include the
payment of the $25 as part of the state’s unemployment insurance
payment to eligible recipients. The other six states elected to make
separate $25 payments. Regardless of how the payment was made, all
10 states had to reprogram their automated systems or develop new
systems to ensure compliance with the FAC program requirements.

         $25 Added to 

         Regular Unemployment            Separate $25 

         Payment                         Payment 


            California                     Florida
            New Mexico                     Indiana
            Vermont                        Minnesota
            Virgin ia                      New York
                                            Ohio
                                            Oklahoma

Objective 3 – Were the states’ systems for implementing the FAC
program adequately designed to address Federal requirements?

States’ systems were adequately designed to meet most Federal
requirements, but some states encountered difficulties related to
withholding taxes and identifying and tracking overpayments.

The systems used by the states to make FAC payments were designed
and implemented to address most of program requirements included in
the Recovery Act, as well as applicable OMB and DOL guidance.
Although reprogramming was required for all states, some states were
able to quickly adapt their systems. Other states had difficulty and
reprogramming is continuing in order to obtain the capabilities necessary
to meet FAC program requirements.

DOL’s primary instructions for implementing the FAC program are
contained in Unemployment Insurance Program Letter No. 11-09 dated
February 23, 2009. Attachment A to Letter No. 11-09 presents
requirements for determining FAC eligibility, establishing the beginning
and ending dates of the program in a state, terminating the FAC
agreement, maintaining and disposing of records, processing FAC
payments, accessing FAC funds, and reporting on FAC transactions.

The requirements in the Recovery Act and the guidance issued by OMB
and DOL include the following:




                           Recovery Act: Federal Additional Compensation Program
                                                     Report No. 18-09-004-03-315
                                           5
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General

   		 Payments are to be made only to individuals entitled to receive
       unemployment compensation under nine programs cited in the
       Recovery Act.

   		 Payments are to be made after all debts are offset from the other
       unemployment compensation programs.

   		 Payments are not to be offset for overpayments other than FAC.

   		 Funds are not to be used to supplement State Additional 

       Compensation. 


   		 The State must meet the non-reduction rule in Section 2002(c) of
       the Recovery Act.

   		 Payments are to be made promptly when due.

   		 Payments must not start earlier than the first week after the date
       the state signed the FAC agreement with DOL.

   		 No payments are to be made on benefit years that begin on or
       after January 1, 2010, except for a phase-out period for regular
       compensation and the federally funded benefits.

   		 Payments are to be terminated if the agreement between the State
       and DOL is terminated.

   		 Funds received must be included on the Internal Revenue Service
       Form 1099-G and taxes are to be withheld when an individual
       elects to have taxes withheld.

Challenges and some non-compliance issues exist with respect to the
implementation of the FAC program. The challenges involve the
development of overpayment tracking and recovery capabilities, and the
development of tax withholding. The non-compliance issues concern not
intending to recover overpayments from claimants unless directed to by
ETA (Indiana) and states not withholding taxes from FAC payments when
requested by claimants.

The following itemization summarizes the status of program
implementation for the 10 states included in the scope of the audit.
Exhibit 1 provides a state-by-state summary of the status as of August
31, 2009, when our audit fieldwork was completed.

   		 The reprogramming in six of the states (Florida, New York, Ohio,
       Oklahoma, Vermont, and Virginia) resulted in the state being able

                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          6
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General

      to withhold taxes when requested by the claimant. The other four
      states (California, Indiana, Minnesota, and New Mexico) were not
      withholding Federal taxes from the FAC payment when requested
      by the claimant.

          o		 Two of the states (California and New Mexico) not
              withholding taxes from individual FAC payments were
              working on obtaining this capability with their automated
              system,
          o		 Two states (Indiana and Minnesota) do not plan to withhold
              taxes from individual payments.

   		 All 10 states will report the total FAC payments on the IRS 

       Form 1099-G as required. 


   		 Three of the 10 states (California, Minnesota, and New Mexico)
       did not have the capability within their automated system to
       identify and track the recovery of overpayments. With the
       exception of Indiana, the states will begin recovery of FAC
       overpayments when the reprogramming of their automated
       systems is complete. The range of overpayments that we
       identified was from about $160,000 (Vermont) to about $2.5 million
       (California). Indiana tracks but does not plan to recover FAC
       overpayments unless directed to by ETA. Indiana estimated its
       overpayments as about $547,000 as of August 2009.

   		 Six states (California, Indiana, Minnesota, New Mexico, New York,
       and Vermont) provided target dates for the completion of their
       system reprogramming actions. Reprogramming was completed
       in the other four states (Florida, Ohio, Oklahoma, and Virginia).

Several causes were identified for the conditions listed above. The
causes included the following:

   		 An extremely short timeframe was available for the states to
       implement the program. The payments to eligible claimants were
       to begin the week ending February 28, 2009. The program was not
       authorized until the Recovery Act was passed and signed by the
       President on February 17, 2009.

   		 The systems used by the states to pay benefits under the regular
       unemployment programs had to be reprogrammed or replaced in
       order for the requirements of the FAC program to be incorporated.
       The age and available capacity within some of the automated
       systems complicated and delayed the reprogramming process.



                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          7
                         Prepared by Foxx & Company, Certified Public Accountants
                      for the U.S. Department of Labor—Office of Inspector General

   		 Indiana and Minnesota officials said they were not going to
       withhold taxes from individual payments because of the cost,
       complexity, and timeframe for implementing the program. These
       states did not believe it was cost-beneficial to withhold taxes from
       every payment.

Objective 4 – Did the states separately account for and report
financial and program data?

FAC funds were separately accounted for, but six states were
unable to report overpayment information.

DOL requires that FAC program funds be separately accounted for and
that information on transactions involving FAC benefits be included in the
following three reports:

                    Information Reported

      ETA 2112     Unemployment Insurance Financial Transactions
                    Summary
   	UI-3           Administrative expenses
   	ETA    227     Overpayments

The risks in reporting FAC information include omitting information from
reports or reporting inaccurate information. We verified that FAC funds
are separately accounted for in the accounting systems for each of the 10
states. We also verified that the states reconcile the amounts in the
reports to the accounting system prior to submitting the reports to DOL.
However, we noted that six of the 10 states (California, Indiana,
Minnesota, New Mexico, New York, and Vermont) did not have the
capability to accumulate and report overpayment information as required.
Until the required reprogramming is completed, 5 of 6 states will continue
to be in non-compliance with the Federal reporting requirements. The
sixth state (Indiana) will continue to be in non-compliance unless ETA
requires the State to report FAC overpayments.

The contributing causes for the inability to accumulate and report
overpayment information related to the age and available capacity within
some of the automated systems. The age and capacity limitations
complicated and delayed the reprogramming process. With respect to
the State of Indiana, the State officials decided that it was not cost
efficient to recover overpayments of FAC funds.




                          Recovery Act: Federal Additional Compensation Program
                                                    Report No. 18-09-004-03-315
                                          8
                        Prepared by Foxx & Company, Certified Public Accountants
                     for the U.S. Department of Labor—Office of Inspector General



RECOMMENDATIONS 


We recommend that the Assistant Secretary for Employment and
Training:

   1. Follow up with the applicable states to ensure that the required
      reprogramming for withholding taxes and identifying and
      recovering overpayments is completed as projected by the states.

   2. Require Indiana to recover and report FAC overpayments.

   3. Reaffirm Federal requirements that

         a. 	 taxes are to be withheld if requested by the claimant,
         b. overpayments are to be recovered, and
         c. 	 FAC overpayment information is to be included on the
              quarterly ETA 227 report.



______________________
Partner
Foxx & Company, Certified Public Accountants




                         Recovery Act: Federal Additional Compensation Program
                                                   Report No. 18-09-004-03-315
                                         9
      Prepared by Foxx & Company, Certified Public Accountants
   for the U.S. Department of Labor—Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




       Recovery Act: Federal Additional Compensation Program
                                 Report No. 18-09-004-03-315
                       10
                Prepared by Foxx & Company, Certified Public Accountants
             for the U.S. Department of Labor—Office of Inspector General




Exhibits 





                 Recovery Act: Federal Additional Compensation Program
                                           Report No. 18-09-004-03-315
                                 11
      Prepared by Foxx & Company, Certified Public Accountants
   for the U.S. Department of Labor—Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




       Recovery Act: Federal Additional Compensation Program
                                 Report No. 18-09-004-03-315
                       12
                                     Prepared by Foxx & Company, Certified Public Accountants
                                  for the U.S. Department of Labor—Office of Inspector General




                                                                                       Exhibit 1

                                           U.S. Department of Labor
                                          FAC Program Audit Results
                                                August 31, 2009

                              Payment                            Tax Withholding           Overpayments

                 As of                        Reprogramming    Withholding   Will                      Report
    State                    In UI
                06-30-09           Separate     Completion        When     Include   Track   Recover     on
                            check
               (Millions)                                      Requested on 1099-G                     ETA227

California                                      Projected
                 $471         X               December 2009       No         Yes      No        No        No

Florida
                  232                 X         Completed         Yes        Yes     Yes       Yes        Yes
Indiana                                          Projected
                  92                  X       for new system      No         Yes     Yes        No        No
                                              November 2009
Minnesota                                        Projected
                  67                  X                           No         Yes      No        No        No
                                               October 2009
New Mexico                                       Projected
                  15          X                                   No         Yes      No        No        No
                                              September 2009
New York                                         Projected
                  223                 X                           Yes        Yes     Yes       Yes        No
                                              September 2009
Ohio
                  141                 X         Completed         Yes        Yes     Yes       Yes        Yes
Oklahoma
                  22                  X         Completed         Yes        Yes     Yes       Yes        Yes
Vermont                                          Projected
                   9          X                                   Yes        Yes     Yes       Yes        No
                                              September 2009
Virginia
                  41          X                 Completed         Yes        Yes     Yes       Yes        Yes
       Total
                $1,313




                                        Recovery Act: Federal Additional Compensation Program
                                                                  Report No. 18-09-004-03-315
                                                        13
           Prepared by Foxx & Company, Certified Public Accountants
        for the U.S. Department of Labor—Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK
	




            Recovery Act: Federal Additional Compensation Program
                                      Report No. 18-09-004-03-315
                   14
                                          Prepared by Foxx & Company, Certified Public Accountants
                                       for the U.S. Department of Labor—Office of Inspector General



                                                                                        Exhibit 2

                                   SUMMARIES OF 

                               RISK ASSESSMENTS FOR 

                          10 STATES INCLUDED IN THE AUDIT 


The primary objective of the audit was to assess the level of risk inherent in the
systems adopted by each of 10 states to implement the FAC program in accordance
with Federal requirements. Eligibility determinations, payments to individuals, and the
reporting of program activities were considered the three most important
risk-associated aspects of the program’s implementation. Of these three, the most
critical risk involved FAC program eligibility determinations. Eligibility determinations
rely on (1) data input into the system based on information from unemployment
compensation claimants and (2) computerized analyses of that data against eligibility
requirements. The inherent risk involved in determining eligibility is high, requiring
many internal control activities to mitigate the risk. A summary of the risk
assessments for each of the 10 states is provided below.

                     SCHEDULE OF RISK  LEVELS BY STATE

                                                                        Overall 
                              Eligibility 
                  State                        Payments     Reporting   System
                            Determination
                                                                         Risk
              California         Low            Medium        Low        Low
              Florida            Low             Low          Low        Low
              Indiana            Low             Low          Low        Low
              Minnesota          Low             Low         Medium      Low
              New Mexico         Low            Medium        Low        Low
              New York           Low            Medium       Medium     Medium
              Ohio               Low             Low          Low        Low
              Oklahoma           Low             Low          Low        Low
              Vermont            Low             Low         Medium      Low
              Virginia           Low             Low          Low        Low




California

The State of California had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and Department
of Labor guidance. California officials recognize the risks associated with eligibility
determinations. Officials established extensive and intensive internal controls and
activities designed to mitigate the overall risk that ineligible individuals would receive
FAC program funds. Accordingly, we rated the level of risk for the State’s compliance
with the Federal requirements as LOW with the exception of identifying and recovering
FAC overpayments.

                                             Recovery Act: Federal Additional Compensation Program
                                                                       Report No. 18-09-004-03-315
                                                    15
                                       Prepared by Foxx & Company, Certified Public Accountants
                                    for the U.S. Department of Labor—Office of Inspector General


In regard to the identification and reporting of FAC overpayments, we consider the
State’s FAC identification of overpayments and tax withholding to be a MEDIUM-level
risk because the State’s current system must be reprogrammed and the
reprogramming was not projected to be completed until December 2009. However,
the risk has been downgraded from HIGH to MEDIUM in our view because the
majority of the FAC payments will not result in overpayments. The MEDIUM risk
assessment also extends to the State’s reporting on the ETA 227 report. However, we
assessed the overall level of risk for reporting as LOW.

A draft of the Statement of Facts concerning the State’s implementation program was
provided to the State officials for review and comment. In addition, the Statement of
Facts was discussed with the State officials during an exit conference on August 10,
2009, following the transmission of the draft to the State. The State officials concurred
with the Statement of Facts during the exit conference and did not send written
comments.

Florida
The State of Florida had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and Department
of Labor guidance. Florida officials recognize the risks associated with determining
eligibility. As a result, they have established extensive and intensive internal controls
and activities designed to mitigate the eligibility risk to a LOW level. Accordingly, we
rated the level of risk for the State’s compliance with the Federal requirements as
LOW.

Other, less critical, risks are involved in the FAC payment process and the reporting
process. However, these risks warranted mitigating internal controls, which we found
that Florida had installed in the system. As a result, we also view these risks as LOW.

A draft of the Statement of Facts concerning the State’s implementation program was
provided to the State officials for review and comment. In addition, the Statement of
Facts was discussed with State officials during an exit conference on August 6, 2009,
following the transmission of the draft to the State. In a letter dated August 7, 2009,
the Director of Florida’s Agency for Workforce Innovation agreed with the description
of the State’s process as presented in the Statement of Facts. The Director also
agreed with the overall LOW risk rating for the Agency.

Indiana
Based on our audit, we assessed the State of Indiana’s level of risk for implementing
the FAC program in compliance with Federal requirements as LOW. The State had a
system in place to ensure that the FAC program met the requirements of the Recovery
Act, Office of Management and Budget, and Department of Labor guidance, except for


                                        Recovery Act: Federal Additional Compensation Program
                                                                  Report No. 18-09-004-03-315
                                               16
                                        Prepared by Foxx & Company, Certified Public Accountants
                                     for the U.S. Department of Labor—Office of Inspector General

the requirements for pursuing overpayments of FAC to ineligible individuals and
withholding taxes from FAC payments as requested by recipients.

Indiana officials recognize the risks associated with eligibility determinations. As a
result, they have established intensive internal controls and activities designed to
mitigate the overall risk to a LOW level. Parts of the risk-mitigating activities are post-
payment checks and controls to identify overpayments and set up recovery actions,
including offsetting future unemployment benefits. Although identified overpayments
of regular unemployment compensation are set up for recovery actions, Indiana made
a management decision not to pursue recovery of FAC overpayments because it
would be too costly. FAC overpayments may occur right along with overpayments of
regular unemployment compensation.

Given Indiana’s decision not to pursue recovery of FAC overpayments, the risk of
ineligible individuals receiving and keeping FAC payments is HIGH. Similarly, the risk
of not withholding taxes from FAC when the recipient opts for such withholding is
HIGH. Because of the minimal amounts of withholding and the reporting of FAC
payments on IRS Form 1099, we have reduced the risk for withholding to LOW.

Other, less critical, risks are involved in the FAC payment and the reporting processes.
However, these risks warrant mitigating internal controls, which we found in place in
the Indiana system. As a result, we view these risks as LOW.

A draft Statement of Facts concerning the State’s implementation program was
provided to the State officials for review and comment. In addition, the Statement of
Facts was discussed with the State officials during an exit conference on
August 17, 2009, following the transmission of the draft Statement of Facts to the
State. The State also provided written comments on August 19, 2009, addressing the
draft Statement of Facts. State officials concurred with the Statement of Facts but
changed their estimate of the amount of FAC overpayments from about $1 million to
about $547,000.

Minnesota
For the State of Minnesota, the most critical risk in the system involves FAC eligibility
for payment determinations. These payment determinations rely on the accuracy of
information provided by claimants and an automated system developed by the State.
The system determines eligibility based on the information provided and various
requirements to obtain unemployment insurance (UI) benefits. The State has
developed and extensively tested its automated system to ensure that payment
determinations are made correctly. The State also has a system of cross-checks with
other data sources to ensure accuracy of payment determinations and the UI program
is audited annually by the Minnesota Legislative Auditor. The Auditor has not reported
any findings dealing with UI program individual eligibility in the most recent Single




                                         Recovery Act: Federal Additional Compensation Program
                                                                   Report No. 18-09-004-03-315
                                                17
                                       Prepared by Foxx & Company, Certified Public Accountants
                                    for the U.S. Department of Labor—Office of Inspector General

Audit report. These activities mitigate the inherent risk associated with making
incorrect payment determinations that result in improper UI and FAC payments. As a
result, we consider the risk that the State will process FAC payments to ineligible
individuals to be LOW.

With the exceptions of identifying and recouping FAC overpayments and withholding
taxes from FAC benefit payments, we believe the State of Minnesota had a system in
place to ensure that the FAC program met the requirements of the Recovery Act,
Office of Management and Budget, and Department of Labor guidance. Accordingly,
we rated the overall level of risk for the State’s compliance with the Federal
requirements as LOW. The State is examining three possible processes to identify
and recoup FAC overpayments and expects to have a system in place by October
2009. While the State is not withholding taxes from the $25 FAC weekly benefits it is
withholding taxes from other benefits if the applicant chooses to do so. It will report
FAC benefits to the Internal Revenue Service at the end of the year to be included in
applicants IRS Form 1099-Gs.

With the exception of Minnesota not yet having a system to identify overpayments
from the automated system, and the State not withholding taxes from FAC payments if
the applicant elects to have taxes withheld, we consider the risk-level for the State’s
payment process to be LOW. The State was making timely and proper payments.
The State does not plan to implement a system to withhold taxes because of the
complexity and timeframe of developing such a system.

The risk associated with the FAC ETA reporting process is MEDIUM in our view
because (1) there is potential for errors in reporting FAC information to DOL since it is
not reconciled with the UI system and (2) the State does not have a system for
identifying and reporting FAC overpayments.

A draft of the Statement of Facts was provided to the State officials for review and
comment. In addition, the draft Statement of Facts was discussed with the State
officials during an exit conference on August 10, 2009, following the transmission of
the draft to the State. The State’s written comments were received on August 11,
2009. The State’s comments have appropriately been incorporated into the Statement
of Facts. The State officials concurred with the Statement of Facts.

New Mexico

The State of New Mexico had a system in place to ensure that the FAC program met
the requirements of the Recovery Act, Office of Management and Budget, and
Department of Labor guidance. New Mexico officials recognize the risks associated
with eligibility determinations. As a result, they have established extensive internal
controls and activities designed to mitigate the overall risk to a LOW level.
Accordingly, we rated the level of risk for the State’s compliance with the Federal
requirements as LOW with the exception of identifying and recovering FAC
overpayments.

                                        Recovery Act: Federal Additional Compensation Program
                                                                  Report No. 18-09-004-03-315
                                               18
                                      Prepared by Foxx & Company, Certified Public Accountants
                                   for the U.S. Department of Labor—Office of Inspector General


In regard to identifying and reporting FAC overpayments, we consider the State’s FAC
identification of overpayments and tax withholding to be a MEDIUM-level risk because
of how long it will have taken the State to complete its reprogramming of the current
system. The risk has been downgraded from HIGH to MEDIUM in our view because
the majority of the FAC payments will not result in overpayments.

Except for the State’s lack of reporting overpayments on the ETA 227, we have
assessed the risk for reporting as a LOW level. The State had a reconciliation system
that ensured that the FAC expenditures reported agreed with the State’s accounting
system. However, the State’s system did not have the ability to establish and recover
overpayments related to the FAC program. Until the system reprogramming is
completed, we consider the ETA 227 reporting risk to be MEDIUM. In their comments
on the draft Statement of Facts, the State officials expressed their view that the
MEDIUM risks discussed above should be reduced to a LOW risk because they intend
to have the fixes of their systems in place by the end of September 2009.

A draft of the Statement of Facts was provided to the State officials for review and
comment. In addition, the draft Statement of Facts was discussed with the State
officials during an exit conference on August 24, 2009, following the transmission of
the draft to the State. The State’s comments were received on August 26, 2009. The
State’s comments have appropriately been incorporated into the Statement of Facts.
The State officials concurred with the Statement of Facts.

New York

The State of New York had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and Department
of Labor guidance. However, the system controls have weaknesses as demonstrated
by duplicate payments that have been made and the non-reporting of FAC
overpayments. Accordingly, we rated the level of risk for the State’s compliance with
the Federal requirements as MEDIUM.

The State has checks built into the system to identify errors or incomplete information.
Because of the extensive age of the system, officials are aware of its limitations and
have taken actions to address the limitations. The system has eligibility controls in
place, and various cross-checks are performed. Although ineligible individuals
received benefits as demonstrated by incarcerated individuals receiving UI benefit
payments prior to the initiation of the FAC program, the State installed compensating
controls to prevent this problem. Therefore, we believe the risk level for eligibility
determinations is LOW.

The State had not developed a system to identify and report overpayments, and
duplicate payments had been made to individuals; therefore, we consider the risk in
the payment process to be at a MEDIUM level. In August 2009, the State implemented
an automated method to prevent duplicate payments. State officials said they had

                                       Recovery Act: Federal Additional Compensation Program
                                                                 Report No. 18-09-004-03-315
                                              19
                                      Prepared by Foxx & Company, Certified Public Accountants
                                   for the U.S. Department of Labor—Office of Inspector General

identified 238 cases of duplicate payments. In addition, State officials were not aware
that they should report FAC overpayments on the ETA 227 report. Because of the
non-reporting of overpayments and the fact that the State officials were not aware that
this reporting was required, we consider the reporting process to be at a MEDIUM
level risk.

A draft Statement of Facts was provided to the State officials for review and comment
on August 23, 2009. The draft Statement of Facts was discussed with the State
officials during an exit conference on August 26, 2009. During the exit conference, the
New York Director of the Unemployment Insurance Division stated that the Statement
of Facts and its conclusions accurately summarized the State’s implementation of the
FAC program. He stated that the State’s UI automated system is antiquated and has
limitations. However, State officials took corrective actions when deficiencies were
identified. A written response to the Statement of Facts was not needed according to
the Director.

Ohio

The State of Ohio had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and Department
of Labor guidance. Ohio officials recognize the risks associated with eligibility
determinations. As a result, they have established extensive and intensive internal
controls and activities designed to mitigate the overall risk to a LOW level.
Accordingly, we rated the level of risk for the State’s compliance with the Federal
requirements as LOW.

Other, less critical, risks are involved in the FAC payment process and the reporting
process. We view these risks as LOW. However, these risks warrant mitigating
internal controls, which we found that Ohio had put in place in the system.

A draft Statement of Facts concerning the State’s implementation of the program was
provided to the State officials for review and comment. In addition, the Statement of
Facts was discussed with the State officials during an exit conference on July 28,
2009, following the transmission of the draft to the State. During the exit conference,
State officials agreed with the description of the State’s process as present in the
Statement of Facts. Written comments were not received from the State.




                                       Recovery Act: Federal Additional Compensation Program
                                                                 Report No. 18-09-004-03-315
                                              20
                                      Prepared by Foxx & Company, Certified Public Accountants
                                   for the U.S. Department of Labor—Office of Inspector General

Oklahoma
The State of Oklahoma had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and Department
of Labor guidance. Oklahoma officials recognize the risks associated with eligibility
determinations. As a result, they have established internal controls and activities
designed to mitigate the overall risk to a LOW level. Accordingly, we rated the level of
risk for the State’s compliance with the Federal requirements as LOW.

Other less critical risks are involved in the FAC payment process and the reporting
process. We view these risks as LOW. However, these risks warrant mitigating
internal controls, which we found Oklahoma had put in place in the system.

A draft of the Statement of Facts was provided to State officials for review and
comment. In addition, the Statement of Facts was discussed with State officials during
an exit conference on August 21, 2009, following the transmission of the draft to the
State. The State’s comments were received on August 26, 2009. The State’s
comments have appropriately been incorporated into the Statement of Facts. The
State officials concurred with the Statement of Facts.

Vermont

The State of Vermont had a system in place to ensure that the FAC program met the
requirements of the Recovery Act, Office of Management and Budget, and DOL
guidance. Accordingly, we rated the level of risk for the State’s compliance with the
Federal requirements as LOW with the exception of the reporting process, which we
considered to be a MEDIUM risk. The MEDIUM reporting risk is based on the State’s
lack of reporting overpayments on the ETA 227 and the need for the State to program
its automated system so the system can report individual FAC benefits on IRS Form
1099-G.

Vermont Department of Labor officials recognize the risks associated with eligibility
determinations and have established the necessary internal controls and activities
designed to mitigate the overall risk to a LOW level. As a result, we believe the vast
majority of the FAC payments will not result in overpayments because of the internal
controls built into the State’s automated system.

State officials are also aware of the need to complete programming of the automated
system to stop FAC payments when the program ends. If programming is not
completed the risk of improper payments would increase. However, the State officials
were committed to completing the required programming in a timely manner and we
consider the risk in the payment process to be LOW.

A draft Statement of Facts concerning the State’s implementation of the program was
provided to Vermont officials for review and comment. In addition, the Statement of
Facts was discussed with State officials during an exit conference on August 31, 2009,

                                       Recovery Act: Federal Additional Compensation Program
                                                                 Report No. 18-09-004-03-315
                                              21
                                       Prepared by Foxx & Company, Certified Public Accountants
                                    for the U.S. Department of Labor—Office of Inspector General

following the transmission of the draft to them. State officials provided comments
during the exit conference. The officials also provide written comments dated
August 28, 2009. We have included those comments as appropriate. They agreed
with the description of the State’s process as presented in the Statement of Facts with
their comments included. State officials also agreed with the overall LOW-risk rating.

Virginia

The Commonwealth of Virginia had a system in place to ensure that the FAC program
met the requirements of the Recovery Act, Office of Management and Budget and
Department of Labor guidance. Virginia officials recognize the risks associated with
eligibility determinations. As a result, they established extensive and intensive internal
controls and activities designed to mitigate the overall risk to a LOW level.
Accordingly, we rated the level of risk for the State’s compliance with the Federal
requirements as LOW.

In regard to the identification and reporting of FAC overpayments, we consider the
State’s FAC identification of overpayments and tax withholding to be a LOW-level risk
because Virginia completed its reprogramming of the current automated system. The
majority of the FAC payments will not result in overpayments. The LOW risk rating
assessment extends to the State reporting of data with the exception of the ETA 227
report, which is a MEDIUM risk.

A draft of the Statement of Facts was provided to Virginia officials for review and
comment. In addition, the Statement of Facts was discussed with State officials during
an exit conference on August 27, 2009, following the transmission of the draft to them.
The State’s Chief of Benefits provided comments during the exit conference and we
have included those comments as appropriate. The Chief of Benefits agreed with the
description of the State’s process as presented in the Statement of Facts. The Chief
of Benefits also agreed with the overall LOW-risk rating. The officials did not submit
written comments.




                                        Recovery Act: Federal Additional Compensation Program
                                                                  Report No. 18-09-004-03-315
                                               22
                                        Prepared by Foxx & Company, Certified Public Accountants
                                     for the U.S. Department of Labor—Office of Inspector General



                                                                                      Exhibit 3

Objectives

The objectives of the audit were to determine whether states have systems in place to
ensure that the FAC program meets the requirements of the Recovery Act, Office of
Management and Budget and DOL guidance, and to assess the level of risk inherent in
the states’ systems. Specifically, the audit was to determine whether states
(1) implemented the FAC program as authorized, (2) paid the $25 weekly supplement in
accordance with allowable methods identified in the Recovery Act, (3) had systems for
implementing the FAC program that were adequately designed to address Federal
requirements, and (4) separately accounted for and accurately reported financial and
program data.

Scope and Methodology

The scope of the audit was limited to evaluating the systems designed by 10 selected
states to implement the FAC program. The 10 states were selected by DOL/OIG using
stratified random sampling. The sampling frame was stratified into five separate strata
and a random sample of two states was selected from each strata. Stratification was
designed using a risk-based approach. Six risk factors were used: (1) Estimated total
benefits; (2) Estimated total beneficiaries; (3) Unemployment rate as of January 2009;
(4) Annual change in unemployment rate from January 2008, through January 2009;
(5) Total number unemployed; and (6) States making FAC payments as of March 25,
2009. The states selected were:

                            California             New York
                            Florida                Oklahoma
                            Indiana                Ohio
                            Minnesota              Vermont
                            New Mexico             Virgin ia

The audit involved examining a minimal number of individual payments or transactions
to assist in obtaining an understanding of the systems and procedures. The objective of
the audit was not to determine whether the FAC payments were properly made.
Consequently, the audit did not involve extensive testing of individual FAC payments or
transactions.

The timeframe for the audit was from June 3, 2009, to September 3, 2009.

Following initial work at DOL/ETA headquarters in Washington D.C., the audit team
visited each selected state to discuss and obtain documentation concerning the state’s
system for implementing the FAC program. The visits were critical to the identification of
weaknesses in the state’s internal controls and to assessing the level of risk that the


                                         Recovery Act: Federal Additional Compensation Program
                                                                   Report No. 18-09-004-03-315
                                                23
                                        Prepared by Foxx & Company, Certified Public Accountants
                                     for the U.S. Department of Labor—Office of Inspector General


state’s system would ensure that the program was implemented in accordance with the
requirements of the Recovery Act, and the OMB and DOL guidance.

This audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.




                                         Recovery Act: Federal Additional Compensation Program
                                                                   Report No. 18-09-004-03-315
                                                24
                 Prepared by Foxx & Company, Certified Public Accountants
              for the U.S. Department of Labor—Office of Inspector General


                                                               Exhibit 4

                       Acronyms

CPA   Certified Public Accountant

DOL   Department of Labor

ETA   Employment and Training Administration

FAC   Federal Additional Compensation

IRS   Internal Revenue Service

GAO   Government Accountability Office

OIG   Office of Inspector General

OMB   Office of Management and Budget

UI    Unemployment Insurance

WBA   Weekly Benefit Allowance




                  Recovery Act: Federal Additional Compensation Program
                                            Report No. 18-09-004-03-315
                                  25
         Prepared by Foxx & Company, Certified Public Accountants
      for the U.S. Department of Labor—Office of Inspector General




THIS PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Federal Additional Compensation Program
                                    Report No. 18-09-004-03-315
                          26
   Prepared by Foxx & Company, Certified Public Accountants
for the U.S. Department of Labor—Office of Inspector General


                                                 Exhibit 5 





    Recovery Act: Federal Additional Compensation Program
                              Report No. 18-09-004-03-315
                    27
